FY 2007 OFFICE OF INSPECTOR GENERAL
FISMA REVIEW OF GSA’S INFORMATION
  TECHNOLOGY SECURITY PROGRAM
  REPORT NUMBER A070108/O/T/F07015


          September 17, 2007
               U.S. GENERAL   SERVICES ADMINISTRATION
               Office of Inspector General




Date:         September 17,2007

To:           Casey Coleman
              Chief Information Officer (I)

Reply to      Gwendolyn A. McGowan
Attn of:      Deputy Assistant Inspector General for Information Technology Audits (JA-T)

Subject:      FY 2007 Office of Inspector General FISMA Review of GSA's Information
              Technology Security Program, Report Number A070 108/O/T/F070 15


                                         INTRODUCTION

Background

The Federal Information Security Management Act of 2002 (FISMA) provides a framework for
securing Federal information systems including: (1) ensuring the effectiveness of information
security controls over information resources; (2) development and maintenance of minimum
controls required to protect Federal information and information systems; and (3) a mechanism
for improved oversight of agency information security programs. This audit report presents the
results of the Inspector General's Fiscal Year (FY) 2007 independent evaluation of the General
Services Administration's (GSA) agency-wide Information Technology (IT) Security program
and controls for select systems, as required by FISMA. This audit report is provided for
inclusion as an appendix in GSA's FY 2007 FISMA report and FY 2009 budget submission to
the Office of Management and Budget (OMB).


Obiectives, Scope, and Methodology

The objective of this audit was to assess the effectiveness of GSA's IT security program and
practices for select systems in meeting FISMA requirements and is based on the results of four
independent audits of the following systems: Region 8 FTS LAN, Region 8 PBS LAN, GSAjobs,
and the Fleet Management System. Our response to specific questions in the OMB FY 2007
reporting template for FISMA, attached as Appendix A, includes a fifth system evaluated as part
of an ongoing audit.

In 2007, we conducted independent IT system security audits of four GSA systems, two of which
were operated by contractors. System security controls were reviewed to assess implementations
of GSA's IT security program. Appendix B lists the four systems reviewed as part of this audit,
and the fifth system used to prepare responses in the attached OMB reporting template. To
answer Question 6 in the OMB reporting template, we relied on an ongoing audit of GSA's
                  1745 JeffersonDavis Highway, Suite 607, Arlington, VA 22202- 3402

                            Federal Recycling Pmgrarn   Printed on Recycled Paper
efforts to protect sensitive information. The Results of Audit section of this report also refers to
significant IT system security weaknesses identified in two additional IT system audits
conducted in 2007, which identified issues consistent with our FISMA system security audits.
We reviewed applications and data repositories for inclusion in the IT system security control
process. FISMA audit work relied on GSA’s IT security policy1 and procedures, standards, and
guidelines for implementing GSA’s IT security program. We met with Agency IT security
officials in the Office of the GSA Chief Information Officer (GSA-CIO) and in Services, Staff
Offices, and Regions (S/SO/R), including the GSA Senior Agency Information Security Officer
(SAISO), Information System Security Managers (ISSMs), and Information System Security
Officers (ISSOs) for select systems. To assess controls implementing commonly accepted IT
security principles and practices, we used the National Institute of Standards and Technology
(NIST) Federal Information Processing Standards Publications, and Special Publication (SP) 800
Series security guidelines. Limited control tests from thirteen chapters of NIST SP 800-100,
Information Security Handbook: A Guide for Managers, October 2006, were included in the
review of GSA's IT security program. To assess the effectiveness of GSA’s IT security program
implementation, we examined system risk assessments, system security plans, system security
assessment results, certification and accreditation (C&A) letters, contingency plans, and system-
level Plans of Action and Milestones (POA&M) for each system. In addition to reviewing the
comprehensiveness of documentation, we evaluated additional management, technical, and
operational controls using: vulnerability scanning, database configuration testing, and reviews of
environmental and physical security, background investigations, and training. IT system security
audits for FISMA also included a detailed analysis of web applications. In addition to FISMA,
NIST, and GSA guidance, we used other applicable regulations and policies, including: OMB
Circular A-130 Revised, Appendix III, Security of Federal Automated Information Resources,
November 2000; and Homeland Security Presidential Directive (HSPD) 12, Policy for a
Common Identification Standard for Federal Employees and Contractors, August 27, 2004.
Audit work was performed between February and August 2007 in accordance with generally
accepted government auditing standards.




1
 GSA Order CIO P 2100.1C - GSA Information Technology Security Policy, February 17, 2006 and the revised GSA
Order CIO P 2100.1D - GSA Information Technology Security Policy, June 21, 2007.
                                                     2
                                     RESULTS OF AUDIT

GSA's IT security program has taken steps to establish an inventory of GSA systems, designate
system security roles and responsibilities, and incorporate NIST guidance. Since the
implementation of FISMA, the GSA-CIO has taken further steps to identify and reduce risks
through designations of additional management, operational, and technical controls outlined in
GSA’s IT security policy and procedures. Despite these efforts, GSA's IT security program has
not been fully effective in ensuring that risks for all applications, data repositories, and services
within system boundaries are identified and mitigated. Oversight of contractor-supported
systems was not comprehensive where systems were not secured, and contractor background
investigations were not consistently conducted.           Configuration management should be
strengthened in the area of configuration settings, and Agency policies and procedures are in
need of improvement in some cases. As a result, GSA's information assets have been exposed to
undue risks of inappropriate disclosure, destruction, and alteration. The IT security program has
not been fully successful due to the lack of a program implementation plan. The GSA-CIO
should assist senior management in developing and adopting an implementation plan with
performance goals and measures for system security officials. Accountability is important for
the success of GSA’s IT security program and should guide an implementation plan that will
assist with managing GSA’s changing risk environment. At the system level, we also concluded
that an effective implementation plan for GSA's IT security program should include a more
detailed inventory process, improved contractor oversight, and more comprehensive
configuration management.

Appendix A contains our responses to specific FISMA questions, as requested by OMB. Our
responses include assessments of the security for GSA's major applications and general support
systems, as noted in Appendix B.

GSA IT System Security Risks and Related Controls Are Not Comprehensively Addressed
for All Applications, Data Repositories, and Services Within System Boundaries

GSA's information assets have been exposed to risks of inappropriate disclosure, destruction, and
alteration when weaknesses were not identified and appropriately mitigated for all applications,
data repositories, and services within system boundaries. OMB Circular A-130, Appendix III,
requires that agencies “implement and maintain a program to assure that adequate security is
provided for all agency information collected, processed, transmitted, stored, or disseminated in
general support systems and major applications.” System security audits in 2007 identified a
major application with multiple web applications not addressed with the system security plan. A
general support system used across the Agency contained databases where risks were not
identified and addressed as part of the certification and accreditation process, inappropriately
exposing sensitive GSA data to undue risks. Another major application implemented an external
reporting module without assessing the risk and security of the module, which also
inappropriately exposed sensitive GSA data to undue risks. Despite efforts to clarify and
enhance GSA's IT system security policy, system certification and accreditation efforts are not
consistently comprehensive and effective.

With our FISMA audit work since 2004, we have repeatedly identified and reported that system
security officials have not adequately addressed all functionality and data within systems. In
2004, we identified that the GSA system inventory was incomplete, and the GSA-CIO took steps
to address the risks and complete the Agency inventory. We also reported that for the systems
                                               3
we reviewed, the C&A process was not implemented consistently, not updated after major
system changes, or not completed. We recommended strengthening policy and procedures to
better manage risks by incorporating controls to ensure that C&A documentation, including risk
assessments, security plans, and security plan testing and evaluations are current and complete.
In 2005, we found that one general support system had deployed Voice over Internet Protocol
without updating its risk assessment and security plan, and another general support system
moved to a new operating system and combined two networks without addressing the changes in
a subsequent update to the security plan. We also reported that the C&A process was not
consistently implemented and recommended that the GSA-CIO improve security over GSA’s
data and IT assets by taking actions to increase oversight of the implementation of GSA’s IT
security policy and procedures related to C&A. GSA’s C&A process was revised to include
oversight by the SAISO and a requirement for a review of C&A documents, but did not focus on
accountability and the inventory of data and applications. In 2006, we again found inconsistent
implementation of the C&A process where we identified incomplete risk assessments, system
security plans, security assessments, and contingency plans for systems reviewed. C&A
documentation for a general support system was not updated to address additional functionality
of the reviewed component. A contractor-provided system did not follow GSA procedural
guides when developing C&A documentation. Similar deficiencies identified in 2007 are
evidence that an approach that goes beyond the current policy is needed to successfully
implement FISMA. The inability of GSA system officials to consistently ensure effective
implementation of FISMA and GSA’s IT security policy is due, in part, to a lack of a
comprehensive inventory of the applications, data repositories, and services residing on their
systems, as well as accountability for identifying and mitigating risks for items in the inventory.
The GSA IT security policy states that system owners are “management officials within GSA
who bear the responsibility for the acquisition, development, maintenance, implementation, and
operation of GSA’s IT systems.” Since the system owner is responsible for integrating and
explicitly identifying funding for information systems and programs into IT investment and
budgeting plans, that individual should be aware of all applications, databases, and services
within the information system. The GSA-CIO's IT security program currently relies on a budget-
based inventory of systems, which is not at the level of detail needed to manage system level
risks. An inventory process that will require system owners to identify and periodically report on
all applications, data repositories, and services maintained with their systems is needed to ensure
that the certification and accreditation process is comprehensively and completely performed as
part of management’s IT security implementation plan.

Oversight of Contractor-Supported Systems Should Be More Comprehensive

GSA’s management of risks and oversight of contractor-supported systems should be more
comprehensive, as evidenced in two areas of risk: (1) inadequately secured contractor-provided
solutions had weaknesses not detected by GSA system security officials; and (2) the lack of
contractor background investigations is a problem this year and has been reported as an area of
risk with our FISMA and GISRA audits since 2002. FISMA requires each agency to develop,
document, and implement an agency-wide information security program to provide information
security for the information and information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or other source.
Our repeated findings confirm that despite GSA’s efforts and implementation of a program that
includes policies, procedures, and assigned roles and responsibilities, the program has not
successfully ensured that contractor-supported systems comply with established requirements.

                                                4
Contractor-Provided Solutions
GSA's IT security program has not been effective in engaging GSA management to consistently
enforce policy and procedures for contractor-provided solutions supporting GSA programs and
maintaining GSA data. In 2007, audit tests of a contractor-provided major application revealed
that oversight of IT security for the system was not adequately performed by GSA system
security officials, who did not ensure that the contractor had applied GSA's IT security policy
and procedural guidance. Enforcement of existing task order clauses would have identified
system security weaknesses and alerted GSA management to vulnerabilities identified during our
audit of the system. In 2006, contractors providing solutions for GSA were not provided with
GSA’s IT security policy and procedures by the ISSO, were not adequately monitored for
compliance with the Agency IT security policy, and were unaware of several vulnerabilities
detected during our review. In 2004 and 2005, we reported on contractor-provided solutions that
were not compliant with the Agency IT security policy and procedures required by their
contracts with GSA. These repeated findings confirm that efforts to implement management
action plans in response to prior audit recommendations did not consistently improve system
owners’ efforts to secure contractor-provided solutions.

Contractor Background Investigations
Controls currently in place and those planned under HSPD-12 will not ensure that contractor
background investigations are requested and completed before access is granted to GSA systems.
We identified contractor personnel security issues with all systems included in this year’s
FISMA review, which place GSA systems and data at increased risk from contractors granted
access to systems before investigations are completed. For one system, 25 contractors were
granted access before background investigations were requested, although the task order stated
that “no access shall be given to the government computer information systems and government
sensitive information without a background investigation being verified or in process.” Two
contractor-supported systems granted temporary access to contractors, but full investigations
were not requested for all of the contractors, and there were no procedures in place to ensure that
investigations were completed. GSA’s IT security policy designates responsibilities for ensuring
that users have the required background investigations to the ISSO, Authorizing Official, Data
Owner, and Contracting Officers/Contracting Officer’s Technical Representative. Without a
single point of responsibility and accountability within GSA for ensuring completion of
background investigations, background investigations remain an oversight challenge. The lack
of background investigations being completed for contractors is also a recurring weakness and
has been included in FISMA and GISRA reports issued since 2002 and is a significant system
security risk. Management's response to prior recommendations deferred resolution to
implementation of HSPD-12, which requires all Federal governmental departments and agencies
to conduct background investigations, adjudicate the results, and issue identity credentials to
Federal employees and contractors who require long-term access to its federally controlled
facilities and information technology systems. However, this issue is not being addressed by
HSPD-12 since contractors supporting GSA systems are often not housed in government
facilities or accessing Government managed systems.




                                                5
Opportunities to Strengthen Configuration Management Were Identified

During the past several years GSA has stressed the need to expand testing of system
configurations to include databases and web applications as our audit tests were expanded to
address emerging IT security threats in these areas. In 2007, we identified opportunities to
strengthen configuration management and reduce risks to GSA systems and data in two areas.
First, insecure configuration settings were identified in system reviews of web application
security, database security, and operating system security that could affect the confidentiality,
integrity, and availability of those GSA systems. Second, Agency configuration management
policies and procedures for handling of unsuccessful login attempts and warning banners were
conflicting and not in conformance with best practices.

Configuration Settings
System vulnerabilities in the four systems reviewed this year resulted from configuration settings
that were not in full conformance with GSA guidance. System testing identified insecure
configuration settings in web applications, databases, and operating systems. Web application
configurations deviated from GSA’s procedural guidance in three systems, including two
systems with critical vulnerabilities. One web application was susceptible to a denial-of-service
attack that could affect system availability. A number of configuration weaknesses were
identified with Lotus Domino database servers that were not configured in accordance with best
practices. Lotus Domino is widely used by the Agency, but GSA has not developed procedural
guidance for Lotus Domino. An Oracle database on another system was not configured in
accordance with GSA’s Oracle database hardening guide2. Operating system vulnerabilities
were identified in three of the four systems we reviewed.

Configuration settings weaknesses resulted when applications, data repositories, and services are
not identified and addressed. While the GSA-CIO has issued guidance on web application
security and has initiated a centralized program for evaluating web application security, this has
not effectively ensured that guidance is being applied to all of GSA’s web applications. To
address configuration settings weaknesses in Lotus Domino, a procedural or hardening guide is
needed. System security officials are responsible for applying secure configurations in all
applications, data repositories, and services within their systems.

Configuration Management Policies and Procedures
GSA’s configuration management policies and procedures contain conflicts in handling invalid
login attempts for web applications, and requirements for warning banners are not
comprehensive. The GSA IT security policy conflicts with the GSA Procedural Guide on Web
Application Security on the handling of unsuccessful login attempts. GSA’s IT security policy
requires user lockout after ten unsuccessful attempts, while the procedural guide incorporates
best practices and specifies delaying the login time between unsuccessful login attempts.
Delaying invalid login attempts for web applications can prevent certain denial-of-service
attacks. Agency guidance on the use of warning banners should also be updated for publicly
accessible systems and web applications. GSA’s IT security policy requires the use of a specific
warning banner, but is not consistent with the System Use Notification control in NIST SP 800-
53, which describes different requirements for publicly accessible systems. Additionally, we
identified web applications in our review this year that did not include warning banners, and


2
    GSA IT Security Procedural Guide: Oracle Database Hardening, CIO-IT Security-05-28, March 2005
                                                       6
concluded that the GSA web application security procedural guide could be strengthened by
referring to banner requirements from the GSA IT security policy.

Conclusion

Conditions reported in 2007 and prior years indicate that management actions have not been
fully effective in mitigating risks and securing GSA’s systems. The need for a successful
security program implementation plan, adopted by senior management, is evidenced by these
recurring findings. GSA relies on a budget-based inventory of systems, which is not at the level
of detail needed to identify and manage system level security risks. An inventory process that
requires system owners to identify and periodically report on all applications, data repositories,
and services maintained with their systems is needed as part of an IT security program
implementation plan. We conclude that management accountability remains important for
successful implementation of FISMA and the success of GSA’s IT security program. Specific
steps to assist senior management officials in developing and adopting performance goals and
measures for system security officials, consistent with IT security program implementation plan
goals are needed to move GSA towards more secure systems and data.


                                   RECOMMENDATIONS

To strengthen GSA's IT security program and improve the security of information technology
assets, we recommend that the GSA, Chief Information Officer take actions to:

   1. Develop an implementation plan to be adopted by management that incorporates agency-
      wide objectives and measures of progress necessary to meet IT security program goals.
   2. Improve management accountability by developing an inventory process that will require
      system owners to identify and periodically report on all applications, data repositories,
      and services maintained with their systems.
   3. Enhance management’s oversight of contractor supported systems by:
          a. Developing processes that promote and measure enforcement of existing task
              order clauses.
          b. Establishing a single point of contact for contractor background investigations.
   4. Strengthen configuration management of GSA’s systems by updating the GSA IT
      security policy and related procedural guidance to address:
          a. Handling successive unsuccessful login attempts in web applications.
          b. Warning banner requirements for both publicly accessible systems and web
              applications.
          c. Secure configuration of Lotus Domino.
   5. Assist senior management officials in developing and adopting performance goals and
      measures for system security officials, consistent with the IT security program
      implementation plan.




                                                7
                              MANAGEMENT COMMENTS 


The GSA-CIO's concurred with the findings and recommendations outlined in this report. A
copy of the GSA-CIO's comments is included in its entirety in Appendix C.

                                  INTERNAL CONTROLS

As discussed in the Objectives, Scope, and Methodology section of this report, the objective of
our review was to assess the effectiveness of GSA's IT security program and practices for select
systems in meeting FISMA requirements. This audit included a review of selected management,
operational, and technical controls for GSA's IT security program. The Results of Audit and
Recommendations sections of this report state in detail the need to strengthen specific controls
with the GSA IT security program.



We would like to express our thanks to the GSA-CIO and her staff for their assistance and
cooperation during the audit. An electronic copy of this report comprised of two files is being
provided for inclusion in the GSA FISMA report to OMB and Congress. Please contact me if
you have any questions regarding this report.




Larry atem mi
Director, Information Technology Security Audit Services
Information Technology Audit Office (JA-T)
            FY 2007 OFFICE OF INSPECTOR GENERAL
            FISMA REVIEW OF GSA’S INFORMATION
              TECHNOLOGY SECURITY PROGRAM
              REPORT NUMBER A070108/O/T/F07015

                            APPENDIX A

     GSA, OFFICE OF INSPECTOR GENERAL RESPONSES TO
THE OFFICE OF MANAGEMENT AND BUDGET’S FISMA QUESTIONS




    The following EXCEL Workbook is transmitted in a separate file
   using the format directed by the Office of Management and Budget.




                                 A-1
                                                                           Section C - Inspector General: Questions 1 and 2
Agency Name: General Services Administration                                                                                                                      Submission date:              September 17, 2007
                                                                                       Question 1: FISMA Systems Inventory



1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or
not categorized). Extend the worksheet onto subsequent pages if necessary to include all Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a contractor of an agency or other organization on
behalf of an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet
the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.



                                                    Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing

2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and percentage of systems which have: a
current certification and accreditation, security controls tested and reviewed within the past year, and a contingency plan tested in accordance with policy.

                                                                                                                          Question 1                                                     Question 2
                                                                                                       a.                     b.                     c.               a.                b.                c.
                                                                                                 Agency Systems       Contractor Systems     Total Number of Number of systems Number of systems Number of systems
                                                                                                                                                 Systems        certified and  for which security     for which
                                                                                                                                               (Agency and       accredited    controls have been contingency plans
                                                                                                                                            Contractor systems)                    tested and      have been tested
                                                                                                                                                                                 reviewed in the in accordance with
                                                                                                                                                                                    past year           policy



                                                                                                                                                         Total
                                                                         FIPS 199 System                    Number                Number     Total                 Total    Percent     Total   Percent     Total   Percent
Bureau Name                                                                                     Number                Number                            Number
                                                                         Impact Level                      Reviewed              Reviewed   Number                Number    of Total   Number   of Total   Number   of Total
                                                                                                                                                       Reviewed
Public Buildings Service (PBS)                                           High                          0                     0                     0          0
                                                                         Moderate                     10                     0                    10          0
                                                                         Low                           0                     0                     0          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                    10          0          0          0         10          0         0                   0                   0
Federal Acquisition Service (FAS) - Formerly FSS                         High                          0                     0                     0          0
                                                                         Moderate                      1                     9          1         10          1         1      100%         1      100%         1      100%
                                                                         Low                           2                     3                     5          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     2          0         12          1         14          1         1      100%         1      100%         1      100%
Federal Acquisition Service (FAS) - Formerly FTS                         High                          0                     1                     1          0
                                                                         Moderate                      2                     4                     6          0
                                                                         Low                           0                     2                     2          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     2          0          0          0          2          0         0                   0                   0
Office of the Chief Acquisition Officer (OCAO)                           High                          0                     0                     0          0
                                                                         Moderate                      0                     4                     4          0
                                                                         Low                           2                     2                     4          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     2          0          6          0          8          0         0                   0                   0
Office of Governmentwide Policy (OGP)                                    High                          0                     0                     0          0
                                                                         Moderate                      1                     4                     5          0
                                                                         Low                           3                     2                     5          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     4          0          6          0         10          0         0                   0                   0
Office of the Chief Information Officer (OCIO)                           High                          0                     0                     0          0
                                                                         Moderate                     15          2          0                    15          2         2      100%         2      100%         2      100%
                                                                         Low                           0                     0                     0          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                    15          2          0          0         15          2         2      100%         2      100%         2      100%
Office of the Chief Financial Officer (OCFO)                             High                          0                     0                     0          0
                                                                         Moderate                      1                     3          1          4          1         1      100%         1      100%         1      100%
                                                                         Low                           0                     0                     0          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     1          0          3          1          4          1         1      100%         1      100%         1      100%
Office of the Chief Human Capital Officer (OCHCO)                        High                          0                     0                     0          0
                                                                         Moderate                      0                     2          1          2          1         1      100%         1      100%         1      100%
                                                                         Low                           0                     0                     0          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     0          0          2          1          2          1         1      100%         1      100%         1      100%
Office of Inspector General (OIG)                                        High                          0                     0                     0          0
                                                                         Moderate                      1                     0                     1          0
                                                                         Low                           0                     0                     0          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     1          0          0          0          1          0         0                   0                   0
Office of General Counsel (OGC)                                          High                          0                     0                     0          0
                                                                         Moderate                      0                     0                     0          0
                                                                         Low                           1                     0                     1          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     1          0          0          0          1          0         0                   0                   0
Board of Contract Appeals (BCA)                                          High                          0                     0                     0          0
                                                                         Moderate                      0                     0                     0          0
                                                                         Low                           1                     0                     1          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     1          0          0          0          1          0         0                   0                   0
Office of Citizen Services and Communications (OCSC)                     High                          0                     0                     0          0
                                                                         Moderate                      0                     0                     0          0
                                                                         Low                           0                     2                     2          0
                                                                         Not Categorized               0                     0                     0          0
                                                                         Sub-total                     0          0          2          0          2          0         0                   0                   0
Agency Totals                                                            High                          0          0          1          0          1          0         0                   0                   0
                                                                         Moderate                     31          2         26          3         57          5         5      100%         5      100%         5      100%
                                                                         Low                           9          0         11          0         20          0         0                   0                   0
                                                                         Not Categorized               0          0          0          0          0          0         0                   0                   0
                                                                         Total                        40          2         38          3         78          5         5      100%         5      100%         5      100%




                                                                                                           A-2
                                             Section C - Inspector General: Question 3
Agency Name:   General Services Administration
               Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.     The agency performs oversight and evaluation to ensure information systems used or operated by a
               contractor of the agency or other organization on behalf of the agency meet the requirements of
               FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

               Agencies are responsible for ensuring the security of information systems used by a contractor of their
               agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet
               the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider,
                                                                                                                              Sometimes (51-70% of the
               may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                                                                                                              time)
               Response Categories:
                - Rarely- for example, approximately 0-50% of the time
                - Sometimes- for example, approximately 51-70% of the time
                - Frequently- for example, approximately 71-80% of the time
                - Mostly- for example, approximately 81-95% of the time
                - Almost Always- for example, approximately 96-100% of the time

               The agency has developed a complete inventory of major information systems (including major
      3.b.     national security systems) operated by or under the control of such agency, including an
               identification of the interfaces between each such system and all other systems or networks,
               including those not operated by or under the control of the agency.
                                                                                                                            Inventory is 96-100%
               Response Categories:
                                                                                                                            complete
                - The inventory is approximately 0-50% complete
                - The inventory is approximately 51-70% complete
                - The inventory is approximately 71-80% complete
                - The inventory is approximately 81-95% complete
                - The inventory is approximately 96-100% complete

      3.c.     The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                  Yes

               The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                             Yes
               contractor of the agency or other organization on behalf of the agency. Yes or No.

      3.e.     The agency inventory is maintained and updated at least annually. Yes or No.                                            Yes

               If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems by
      3.f.     Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit 53 (if
               known), and indicate if the system is an agency or contractor system.

                                                                                                                               Agency or
                                                                                                Exhibit 53 Unique Project
                         Component/Bureau                          System Name                                                 Contractor
                                                                                                     Identifier (UPI)
                                                                                                                                system?




               Number of known systems missing from
               inventory:




                                                                     A-3
                                                    Section C - Inspector General: Questions 4 and 5
Agency Name: General Services Administration
                                     Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process.
Evaluate the degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or
necessary, include comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                  The POA&M is an agency-wide process, incorporating all known IT security weaknesses
       4.a.       associated with information systems used or operated by the agency or by a contractor of the                   Almost Always (96-100% of the time)
                  agency or other organization on behalf of the agency.
                  When an IT security weakness is identified, program officials (including CIOs, if they own or
       4.b.                                                                                                                      Almost Always (96-100% of the time)
                  operate a system) develop, implement, and manage POA&Ms for their system(s).
                  Program officials and contractors report their progress on security weakness remediation to the
       4.c.                                                                                                       Almost Always (96-100% of the time)
                  CIO on a regular basis (at least quarterly).
                  Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly
       4.d.                                                                                                                      Almost Always (96-100% of the time)
                  basis.

       4.e.       IG findings are incorporated into the POA&M process.                                                           Almost Always (96-100% of the time)

                  POA&M process prioritizes IT security weaknesses to help ensure significant IT security
       4.f.                                                                                                                      Almost Always (96-100% of the time)
                  weaknesses are addressed in a timely manner and receive appropriate resources.
                  POA&M process comments: The General Services Administration, Chief Information Officer, has developed an agencywide POA&M
                  process. All five systems reviewed have a POA&M and most known IT security weaknesses were being managed in the POA&Ms.
                  However, the POA&M for one major application did not include 3 of 10 weaknesses.




                                          Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and
standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information
and Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk
assessments and security plans.

                  The IG rates the overall quality of the Agency's certification and accreditation process as:

                  Response Categories:
                   - Excellent
       5.a.                                                                                                                      Satisfactory
                   - Good
                   - Satisfactory
                   - Poor
                   - Failing

                  The IG's quality rating included or considered the following aspects of the C&A process: Security plan                                   X
                  (check all that apply)
                                                                                                                 System impact level                       X
                                                                                                                 System test and evaluation                X
                                                                                                                 Security control testing                  X
       5.b.
                                                                                                                 Incident handling                         X
                                                                                                                 Security awareness training               X
                                                                                                                 Configurations/patching                   X
                                                                                                                 Other:
                  C&A process comments: GSA's C&A process is satisfactory, but weak implementaion by system owners result in a program that has not effectively
                  ensured that risks for all applications, data repositories, and services within system boundaries are identified and mitigated. Most conditions identified in
                  2007 were also reported in prior years indicating that management actions in response to prior year FISMA audit reports have not been fully effective in
                  mitigating risk and securing GSA’s systems, due in part, to a continuing lack of accountability. We concluded that effective implementation of GSA's IT
                  Security Program at the system level is dependent upon a more detailed and granular inventory process and increased accountability.

                                                                                     A-4
                                                Section C - Inspector General: Questions 6 and 7
Agency Name: General Services Administration
                      Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

              Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA)
     6.a.
              process, as discussed in Section D II.4 (SAOP reporting template), including adherence
              to existing policy, guidance, and standards.

              Response Categories:
               - Response Categories:                                                                                                           Satisfactory
               - Excellent
               - Good
               - Satisfactory
               - Poor
               - Failing
              Comments: GSA has appointed a senior official for privacy, issued a privacy benchmark report, updated policy, taken steps toward
              improving the protection of PII, and implemented a PIA process. Controls for encryption of PII stored on mobile devices or accessing
              PII from personally owned computers are not yet implemented.




              Provide a qualitative assessment of the agency's progress to date in implementing the
     6.b.     provisions of M-06-15, "Safeguarding Personally Identifiable Information" since the most
              recent self-review, including the agency's policies and processes, and the administrative,
              technical, and physical means used to control and protect personally identifiable
              information (PII).

              Response Categories:                                                                                                     Poor
               - Response Categories:
               - Excellent
               - Good
               - Satisfactory
               - Poor
               - Failing
              Comments: GSA has not comprehensively assessed the adequacy of implementation for existing privacy controls in GSA PII systems and does not
              identify roles and responsibilities for verifying the implementation of those controls. Contracts for systems with PII do not yet consistently include privacy
              related Federal Acquisition Regulation (FAR) clauses, and technical scanning on a sample of PII systems revealed that patches have not been
              consistently applied, leaving some databases vulnerable to known exploits. Controls have been implemented to support least privilege access, but one
              system inappropriately allowed users to view sensitive information about government facilities. Controls for encryption of PII stored on mobile devices or
              accessing PII from personal computers are not yet implemented.

                                                           Question 7: Configuration Management

              Is there an agency-wide security configuration policy? Yes or No.                                                                      Yes
     7.a.
              Comments: GSA's IT Security Policy requires all agency systems to use GSA technical guidelines, NIST guidelines, or industry best practices for
              purposes of security configuration and hardening.


              Approximate the extent to which applicable information systems apply common security
     7.b.     configurations established by NIST.

              Response categories:
               -   Rarely- for example, approximately 0-50% of the time
                                                                                                                              Mostly (81-95% of the time)
               -   Sometimes- for example, approximately 51-70% of the time
               -   Frequently- for example, approximately 71-80% of the time
               -   Mostly- for example, approximately 81-95% of the time
               -   Almost Always- for example, approximately 96-100% of the time




                                                                                 A-5
                                         Section C - Inspector General: Questions 8, 9, 10 and 11
Agency Name: General Services Administration
                                                            Question 8: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law
enforcement. If appropriate or necessary, include comments in the area provided below.

                 The agency follows documented policies and procedures for identifying and reporting
      8.a.                                                                                                                         Yes
                 incidents internally. Yes or No.
                 The agency follows documented policies and procedures for external reporting to US-
      8.b.                                                                                                                         Yes
                 CERT. Yes or No. (http://www.us-cert.gov)
                 The agency follows documented policies and procedures for reporting to law
      8.c.                                                                                                                              Yes
                 enforcement. Yes or No.
                 Comments: The GSA-CIO has developed a procedural guide that outlines the policies and procedures for incident handling and
                 reporting across the Agency. Incident handling and reporting were generally consistent with this guide for the five systems we
                 reviewed.

                                                       Question 9: Security Awareness Training
Has the agency ensured security awareness training of all employees, including contractors and those
employees with significant IT security responsibilities?

Response Categories:
 - Rarely- or approximately 0-50% of employees                                                                  Almost Always (96-100% of employees)
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees
                                                        Question 10: Peer-to-Peer File Sharing
Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness training,
                                                                                                                                   Yes
ethics training, or any other agency wide training? Yes or No.
                                                  Question 11: E-Authentication Risk Assessments
The agency has completed system e-authentication risk assessments. Yes or No.                                                      Yes




                                                                          A-6
                      FY 2007 OFFICE OF INSPECTOR GENERAL
                      FISMA REVIEW OF GSA’S INFORMATION
                        TECHNOLOGY SECURITY PROGRAM
                        REPORT NUMBER A070108/O/T/F07015

                                             APPENDIX B

   SYSTEMS WHOSE CONTROLS WERE EVALUATED BY THE OFFICE OF
 INSPECTOR GENERAL IN 2007 AND INCLUDED IN RESPONSES TO THE OMB
              REPORTING TEMPLATE IN APPENDIX A

    System                 Owner                                         Description
                       Office of the Chief     The Region 8 FTS LAN functions, personnel, hardware, and
                      Information Officer      software were transferred from the region to the GSA-CIO as part
                               (I)             of the Agency’s IT infrastructure consolidation initiative in early
                            Formerly           2007. The Region 8 FTS LAN is a general support system, which
Region 8 FTS LAN
                        Rocky Mountain         supports users at the Denver Federal Center. This system provides
                            Region 8           connectivity in support of workflow processing, email, and
                       Denver, Colorado        procurement-related services. The Region 8 FTS LAN is an
                              (8A)             Agency system categorized as moderate risk.
                                               The Region 8 PBS LAN functions, personnel, hardware, and
                       Office of the Chief     software were transferred from the region to the GSA-CIO as part
                      Information Officer      of the Agency’s IT infrastructure consolidation initiative in early
                               (I)             2007. The Region 8 PBS LAN supports users across six states,
                            Formerly           incorporates Voice over Internet Protocol (VoIP), and is
Region 8 PBS LAN
                        Rocky Mountain         administered from regional offices in Denver, Colorado. The LAN
                            Region 8           is a general support system categorized as moderate risk and
                       Denver, Colorado        provides connectivity in support of workflow processing, e-mail,
                              (8A)             and procurement related services. The Region 8 PBS LAN is an
                                               Agency system categorized as moderate risk.
                                               GSAjobs is owned and operated by Monster Government Solutions
                   Office of the Chief Human   and provides services to GSA under terms of a multiple award
    GSAjobs              Capital Officer       schedule contract task order. This contractor-provided solution is a
                               (C)             Privacy Act system containing the personally identifiable
                                               information of job applicants and is categorized as moderate risk.
                                               FMS is a contractor-supported system used to manage GSA's fleet
Fleet Management      Federal Acquisition      of 200,000 motor vehicles and is categorized as moderate risk. The
      System               Service             system includes a number of web applications used to report
      (FMS)                   (Q)              mileage, report vehicles for sale, log accidents, and track vehicles
                                               from the GSA Automotive Center.
                                               Pegasys is GSA's web-based core financial management system,
                                               supported by contractors and is categorized as moderate risk. The
                      Office of the Chief      system provides detailed and summary financial information in a
    Pegasys           Financial Officer        multitude of formats and has more than twenty interfaces with
                              (B)              other GSA applications/systems. Results from an ongoing audit of
                                               Pegasys are included in responses to the OMB Reporting Template
                                               but are not addressed in the body of this report.




                                                   B-1
                                   FOR OFFICIAL USE ONLY
                                           DRAFT REPORT

  FY 2007 OFFICE OF INSPECTOR GENERAL
  FISMA REVIEW OF GSA’S INFORMATION
    TECHNOLOGY SECURITY PROGRAM
    REPORT NUMBER A070108/O/T/F07015

              APPENDIX C

GSA CIO’S RESPONSE TO DRAFT AUDIT REPORT




                    C-1
                                                                                                    FOR OFFICIAL USE ONLY
                                                                                                            DRAFT REPORT

                                FY 2007 OFFICE OF INSPECTOR GENERAL
                                FISMA REVIEW OF GSA’S INFORMATION
                                  TECHNOLOGY SECURITY PROGRAM
                                  REPORT NUMBER A070108/O/T/F07015

                                                         APPENDIX D

                                               REPORT DISTRIBUTION

                                                                                                                              Copies

Chief Information Officer (I) .......................................................................................................3

Chief Financial Officer (B)..........................................................................................................2

Commissioner, Federal Acquisition Service (Q) .........................................................................1

Chief Human Capital Officer (C) ................................................................................................1

Regional Administrator, Rocky Mountain Region (8A)..............................................................1

Audit Follow-up and Evaluation Branch (BECA).......................................................................1

Assistant Inspector General for Auditing (JA and JAO) .............................................................2

Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F) ..................1

Deputy Assistant Inspector General for Acquisition Audits (JA-A) ...........................................1

Deputy Assistant Inspector General for Information Technology Audits (JA-T) .......................1

Administration and Data Systems Staff (JAS).............................................................................1

Assistant Inspector General for Investigations (JI)......................................................................1

Regional Inspector General for Auditing, Heartland Region (JA-6)...........................................1

Regional Inspector General for Investigations, Heartland Region (JI-6) ....................................1




                                                                  D-1
